APPENDIX TABLE OF CONTENTS
Opinion and Orders
Opinion of the United States Court of Appeals for
the Fourth Circuit (April 16, 2020)................... la
Judgment of the United States District Court for
the District of South Carolina
(September 23, 2019)......................................... 3a
Report and Recommendation of the United States
District Court for the District of South
Carolina Rock Hill Division
(May 29, 2019)............... .................................... 5a
Order of Default Judgment of the Court of Common
Pleas for the Sixth Judicial Circuit
(September 1, 2016)....................................... . 18a
Constitutional and Statutory Provisions
Relevant Statutory Provisions

21a

Other Documents
Supreme Court Case Block Quotes

33a

Complaint and Request for Injunction
(April 2, 2019).................................

35a

Addendum I—Additional Defendants

44a

Addendum II-Dates and Times of Events Giving
Rise to Claim........................................ ............ 49a
Addendum III—Facts Underlying the Claim

55a

APPENDIX TABLE OF CONTENTS (Cont.)
Addendum IV-Statement of Requested Relief......81a
Addendum V-Sheriff Incident Report
(December 18, 2012).......................
Addendum VI—Final Decree of Divorce
(May 27, 2014)...................................;

91a
102a

Addendum VII—Order for Destruction of Arrest
Records (April 20, 2016)
115a
Addendum VIII—Affidavit of Reviewing Physician
Harvey L. Gayer, Ph.D. (August 8, 2018)...... 120a
Affidavit of Marc Harari, Ph.D.
(May 23, 2019).....................

126a

Affidavit of Consulting Physician
Andrew M. Gothard, PhD.
(June 5, 2019)...........................

133a

Affidavit of Consulting Physician Lois J. Veronen
(June 3, 2019)
138a
Family Court Ordered Psychological Evaluation
Summary (July 10, 2013)
143a
Email from BL
(October 25, 2014)...........

160a

Email from SA
(July 7, 2013)

161a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
(APRIL 16, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
CHARLES R. CAMPBELL,
Plain tiff-Appellan t,
v.
MS. HOLLIE S. BENNETT; DR. KAREN K.
SHELTON; HONORABLE TONY M. JONES;
MS. CATHERINE A. STONE; MR. CHARLTON B.
HALL; MS. EMILY H. FARR; MR. DEAN GRIGG;
MS. CHRISTA T. BELL; MR. DAVID B. LOVE;
BOARD OF EXAMINERS IN PSYCHOLOGY, South
Carolina Dept, of Labor, Licensing, and Regulation;
MS. SHIRLEY A. VICKERY; SOUTH CAROLINA
BAR ASSOCIATION; SOUTH CAROLINA BAR
BOARD OF GOVERNORS; MR. M. DAWES
COOKE, JR.; MS. BEVERLY A. CARROLL;
DR. J. PATRICK GOLDSMITH,
Defendan ts-Appellees.
No. 19-2149
On Appeal from the United States District Court
for the District of South Carolina, at Rock Hill.
Joseph F. Anderson, Jr., Senior District Judge.
(0:19-CV-00973-JFA)

App.2a

Before: WILKINSON, QUATTLEBAUM,
and RUSHING, Circuit Judges.
PER CURIAM:
Charles R. Campbell appeals the district court’s
order accepting the recommendation of the magistrate
judge and denying relief on Campbell’s 42 U.S.C.
§ 1983 (2018) complaint. We have reviewed the record
and find no reversible error. Accordingly, we affirm for
the reasons stated by the district court. Campbell v.
Bennett, No. 0:19-cv-00973-JFA(D.S.C. Sept. 23, 2019).
We dispense with oral argument because the facts
and legal contentions are adequately presented in the
materials before this court and argument would not
aid the decisional process.
AFFIRMED

App.3a
JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF SOUTH CAROLINA
(SEPTEMBER 23, 2019)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLES R. CAMPBELL,
Plaintiff,
v.
MS. HOLLIE S. BENNETT; DR. KAREN K.
SHELTON; THE HONORABLE TONY M. JONES;
MS. CATHERINE A. STONE; MR. CHARLTON B.
HALL; MS. EMILY H. FARR; MR. DEAN GRIGG;
MS. CHRISTA T. BELL; MR. DAVID B. LOVE;
BOARD OF EXAMINERS IN PSYCHOLOGY, South
Carolina Dept, of Labor, Licensing, and Regulation;
MS. SHIRLEY A. VICKERY; SOUTH CAROLINA
BAR ASSOCIATION; SOUTH CAROLINA BAR
BOARD OF GOVERNORS; MR. M. DAWES
COOKE, JR.; MS. BEVERLY A. CARROLL;
DR. J. PATRICK GOLDSMITH,
Defendants.
Civil Action No. 0:19-973-JFA
IT IS ORDERED AND ADJUDGED that plaintiff,
Charles R. Campbell shall take nothing of the above

App.4a

named defendants and this case is dismissed with pre­
judice and without issuance and service of process.
Decision by the Honorable Joseph F. Anderson, Jr.,
United States District Judge, presiding accepting the
Report and Recommendations set forth by the Honorable
Paige J. Gossett, United States Magistrate Judge
which recommends this case be summarily dismissed
with prejudice.
CLERK OF COURT
/s/ Mary L. Floyd
Deputy Clerk
Date: September 23, 2019

App.5a
REPORT AND RECOMMENDATION OF THE
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF SOUTH CAROLINA
ROCK HILL DIVISION
(MAY 29, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ROCK HILL DIVISION
CHARLES R. CAMPBELL,
Plaintiff,
v.
MS. HOLLIE S. BENNETT; DR. KAREN K.
SHELTON; THE HONORABLE TONY M. JONES;
MS. CATHERINE A. STONE; MR. CHARLTON B.
HALL; MS. EMILY H. FARR; MR. DEAN GRIGG;
MS. CHRISTA T. BELL; MR. DAVID B. LOVE;
BOARD OF EXAMINERS IN PSYCHOLOGY, South
Carolina Dept, of Labor, Licensing, and Regulation;
MS. SHIRLEY A. VICKERY; SOUTH CAROLINA
BAR ASSOCIATION; SOUTH CAROLINA BAR
BOARD OF GOVERNORS; MR. M. DAWES
COOKE, JR.; MS. BEVERLY A. CARROLL;
DR. J. PATRICK GOLDSMITH,
Defendants.
C/A No. 0:19-973-JFA-PJG

App.6a
Before: Paige J. GOSSETT,
United States Magistrate Judge.
The plaintiff, Charles R. Campbell, proceeding pro
se, brings this civil rights action pursuant to 42 U.S.C.
§ 1983. This matter is before the court pursuant to 28
U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2) (D.S.C.).
Having reviewed the Complaint in accordance with
applicable law, the court concludes that it should be
summarily dismissed with prejudice and without
issuance and service of process.
I.

Factual and Procedural Background

This matter arises out of Plaintiff s divorce of his
ex-wife and the termination of his parental rights.
Plaintiffs divorce was finalized in the York County
Family Court in May 2014. (Compl., ECF No. 1 at 13.)
In the Final Order and Decree of Divorce, Plaintiff
was barred from visiting or contacting his three
children. (Id) Plaintiff claims that he was denied due
process during the parental evaluation phase of the
family court matter, which warrants a “complete
reversal” of the family court judgment by this court.
(Id. at 15.) Specifically, Plaintiff claims he was preju­
diced by a 2013 arrest for third-degree assault and
battery—a charge that was ultimately dropped. (Id)
Plaintiff also claims a psychologist retained by Plain­
tiff, Dr. Karen K. Shelton, and a court-appointed
guardian ad litem, Hollie S. Bennett, submitted
negative reports to the family court that were
presumptively biased and false, in part because they
presumed Plaintiff was guilty of the assault and
battery charge. (Id. at 15, 18, 20, 22.) Plaintiff further
claims he was prejudiced in the family court matter

App.7a
because he was not able to have “appropriate legal
assistance.” (Id. at 16.)
Plaintiff brings this action pursuant to 42 U.S.C.
§ 1983 for violations of his right to due process and
right to counsel arising out of the divorce proceeding.
Plaintiff names as defendants Shelton, Bennett, and
the family court judge that presided over Plaintiffs
case—the Honorable Tony M. Jones. Plaintiff also
names the South Carolina Bar, its Board of Governors,
and individual board members (Dawes Cooke, Jr. and
Beverly A. Carroll), claiming they are responsible for
Plaintiffs lack of access to counsel. (Id. at 27-28.)
Plaintiff also names the South Carolina Department
of Labor, Licensing, and Regulation (“LLR”), its Board
of Examiners in Psychology, and LLR and Board
officials (Emily H. Farr, Dean Grigg, Christa T. Bell,
David B. Love, and Shirley A. Vickery), claiming they
failed to properly investigate Plaintiffs complaint about
Shelton, in violation of Plaintiffs right to due process.
(Id. at 9-10, 28-29.) Finally, Plaintiff also names as
defendants Catherine A. Stone, a licensed independent
social worker; Charlton B. Hall, a licensed marriage
and family therapist; and Dr. J. Patrick Goldsmith, a
licensed psychologist, but Plaintiff provides no specific
facts about their involvement. (Id. at 9, 11.)
Plaintiff seeks damages from the named defend­
ants. (Id. at 34.) Plaintiff also seeks various forms of
injunctive relief. He asks the court to: (l) order Shelton
to release all of Plaintiffs records; (2) bar any commu­
nication about or distribution of Plaintiffs parental
evaluation; (3) bar any of the named defendants and
his ex-wife’s family from communicating with his
children; (4) order an evaluation of each of his children
for parental alienation; (5) suspend and dissolve the

App.8a
York County Family Court’s Final Order and Decree of
Divorce; (6) award Plaintiff sole custody of his children;
(7) and award Plaintiff the right to reintegrate with
his children. {Id. at 31-33.) Finally, Plaintiff seeks a
preliminary injunction so that he can attend one of his
children’s high school graduation ceremony. (ECF No. 7.)
II. Discussion
A. Standard of Review
Under established local procedure in this judicial
district, a careful review has been made of the pro se
Complaint. The court possesses the inherent authority
to review a pro se complaint to ensure that subject
matter jurisdiction exists and that a case is not
frivolous, even if the complaint is not subject to the
prescreening provisions of 28 U.S.C. § 1915.1 See
Mallard v. U.S. Dist. Court, 490 U.S. 296, 307-08 (1989)
(“Section 1915(d) . . . authorizes courts to dismiss a
‘frivolous or malicious’ action, but there is little doubt
they would have power to do so even in the absence of
this statutory provision.”); Boss v. Baron, 493 F. App’x
405, 406 (4th Cir. 2012) (“[Fjrivolous complaints are
subject to dismissal pursuant to the inherent author­
ity of the court, even when the filing fee has been
paid . . . [and] because a court lacks subject matter
jurisdiction over an obviously frivolous complaint,
dismissal prior to service of process is permitted.”)
(citations omitted); see also Fitzgerald v. First E.
Seventh St. Tenants Corp., 221 F.3d 362, 364 (2d Cir.
2000) (“ [District courts may dismiss a frivolous com­
plaint sua sponte even when the plaintiff has paid the
required filing fee[.]”); Ricketts v. Midwest Nat’l
1 Plaintiff paid the filing fee in this case. (ECF No. 1.)

App.9a

Bank, 874 F.2d 1177, 1181 (7th Cir. 1989) (“[A] dis­
trict court’s obligation to review its own jurisdiction is
a matter that must be raised sua sponte, and it exists
independent of the ‘defenses’ a party might either
make or waive under the Federal Rules.”); Franklin v.
State of Or., State Welfare Div., 662 F.2d 1337, 1342
(9th Cir. 1981) (providing a judge may dismiss an
action sua sponte for lack of subject matter jurisdic­
tion without issuing a summons or following other
procedural requirements).
This court is required to liberally construe pro se
complaints, which are held to a less stringent standard
than those drafted by attorneys. Erickson v. Pardus,
551 U.S. 89, 94 (2007); King v. Rubenstein, 825 F.3d
206, 214 (4th Cir. 2016). Nonetheless, the requirement
of liberal construction does not mean that the court
can ignore a clear failure in the pleading to allege facts
which set forth a claim cognizable in a federal district
court. See Weller v. Dep’t of Soc. Servs., 901 F.2d 387
(4th Cir. 1990); see also Ashcroft v. Iqbal, 556 U.S.
662, 684 (2009) (outlining pleading requirements under
Rule 8 of the Federal Rules of Civil Procedure for “all
civil actions”).
B. Analysis
The Complaint is expressly filed pursuant to
42 U.S.C. § 1983, which “‘is not itself a source of sub­
stantive rights,’ but merely provides ‘a method for
vindicating federal rights elsewhere conferred.’”
Albright v. Oliver, 510 U.S. 266, 271 (1994) (quoting
Baker v. McCollan, 443 U.S. 137, 144 n.3 (1979)). To
state a claim under § 1983, a plaintiff must allege: (l)
that a right secured by the Constitution or laws of the
United States was violated, and (2) that the alleged

App.lOa

violation was committed by a person acting under the
color of state law. West v. Atkins, 487 U.S. 42, 48
(1988). As explained below, the Complaint is subject
to summary dismissal because Plaintiffs claims pur­
suant to § 1983 are frivolous, that is, the claims lack
an arguable basis in either law or fact. See Denton v.
Hernandez, 504 U.S. 25, 31 (1992) (quoting Neitzke v.
Williams, 490 U.S. 319, 325 (1989)).
1. State Actor
Here, five of the named defendants are not
amenable to suit under § 1983 because they are not
state actors. “To constitute state action, ‘the deprivation
must be caused by the exercise of some right or
privilege created by the State ... or by a person for
whom the State is responsible,’ and ‘the party charged
with the deprivation must be a person who may fairly
be said to be a state actor.” West, 487 U.S. at 49
(quoting Lugar v. Edmondson Oil Co., Inc., 457 U.S.
922, 936 n.18 (1982)); see also Goldstein v. Chestnut
Ridge Volunteer Fire Co., 218 F.3d 337, 341 (4th Cir.
2000) (discussing the different tests used to identify
when private parties can be considered state actors in
civil rights suits).
Here, the allegations of the Complaint show that
the conduct of Bennett, Shelton, Stone, Hall, and
Goldsmith is not fairly attributable to the state
because, even if they participated in the family court
proceedings in some form, all are professionals in
private practice, and their conduct was not directed by
the State or in the State’s interest. Bennett, a guardian
ad litem appointed by the family court, represented
private interests in the litigation. See Higdon v.
Smith, 565 F. App’x 791, 793 (llth Cir. 2014) (finding

App.lla
a guardian ad litem appointed in a divorce proceeding
to protect the interests of a child was not a state
actor); see also Meeker v. Kercher, 782 F.2d 153, 155
(10th Cir. 1986); Parkell v. South Carolina, 687 F.
Supp. 2d 576, 587 (D.S.C. 2009). Similarly, Shelton is
a psychologist in private practice that was retained by
private parties. The mere fact that her ultimate con­
clusions were used as evidence in a court proceeding
does not convert her otherwise private conduct into
action attributable to the State. And, the only facts
provided by Plaintiff about Stone, Hall, and Goldsmith,
are that they are a social worker, a therapist, and a
psychologist in private practice. Accordingly, there
is no indication that these defendants performed
conduct on behalf or in the interest of the State.
Therefore, Plaintiffs § 1983 claims against these
defendants should be summarily dismissed as frivolous
because there is no arguable basis in law that these
defendants are subject to suit under that statute.
2. Judicial Immunity
As to the Honorable Tony M. Jones, he is shielded
from suit by judicial immunity. It is well settled that
judges have absolute immunity from legal claims
arising out of their judicial actions. See Mireles v.
Waco, 502 U.S. 9, 11 (1991) (providing that judges are
entitled to absolute immunity from suit, not just the ulti­
mate assessment of damages, for judicial actions
taken within their jurisdiction); Chu v. Griffith, 771
F.2d 79, 81 (4th Cir. 1985) (“It has long been settled
that a judge is absolutely immune from a claim for
damages arising out of his judicial actions.”). Judicial
immunity is not pierced by allegations of corruption or
bad faith, nor will a judge “be deprived of immunity
because the action he took was in error, was done

App.l2a

maliciously, or was in excess of his authority.” Stump
v. Sparkman, 435 U.S. 349, 356S57 (1978). Here,
Plaintiffs claim against Jones concerns Jones’s actions
as the presiding judge in Plaintiffs state divorce pro­
ceeding. Thus, judicial immunity covers Jones’s actions
here. Because judicial immunity is a protection from
suit, not just from ultimate assessment of damages,
Mireless, 502 U.S. at 11, Plaintiffs claims against Jones
are barred.
3. Due Process Claim
As to Plaintiffs claim that his right to due process
was violated by LLR, the Board of Examiners in
Psychology, and individuals associated with these
entities, the claim is patently without merit. The Due
Process Clause of the Fourteenth Amendment pro­
vides that no state shall “deprive any person of life,
liberty, or property, without due process of law.” U.S.
Const, amend. XIV. The Due Process Clause provides
two areas of constitutional protection—procedural
due process and substantive due process. “To state a
procedural due process violation, a plaintiff must (l)
identify a protected liberty or property interest and (2)
demonstrate deprivation of that interest without due
process of law.” Prieto v. Clarke, 780 F.3d 245, 248
(4th Cir. 2015); see also Snider Intern. Corp. v. Town
of Forest Heights, Md., 739 F.3d 140, 146 (4th Cir.
2014) (“ [Procedural due process requires fair notice of
impending state action and an opportunity to be
heard.”) (citing Mathews, 424 U.S. at 333). On the
other hand, substantive due process “bars certain
arbitrary, wrongful government actions ‘regardless of
the fairness of the procedures used to implement
them.’” Zinermon v. Burch, 494 U.S. 113, 125 (1990)
(citing Daniels v. Williams, 474 U.S. 327, 331 (1986)).

App.l3a

To state a substantive due process claim, a plaintiff
must plausibly allege “(l) that [he] had property or a
property interest; (2) that the state deprived [him] of
this property or property interest; and (3) that the
state’s action falls so far beyond the outer limits of
legitimate governmental action that no process could
cure the deficiency.” Tri Cty. Paving, Inc. v. Ashe Cty.,
281 F.3d 430, 440 (4th Cir. 2002).
Here, Plaintiff claims his right to due process was
violated because he filed a complaint with LLR’s
Board of Examiners in Psychology about Shelton’s
conduct that prompted an investigation, resulting in
LLR sending a letter to Shelton that communicated
Plaintiffs concerns to Shelton. (Compl., ECF No. 1 at
29.) Plaintiff does not expressly state whether he
raises a procedural or substantive due process claim
here, but regardless, Plaintiff does not have a liberty
or property interest in the outcome of a Board of
Examiners in Psychology investigation into a psycho­
logist.
The liberty interests guaranteed by the Fourteenth
Amendment are broad, and includes the right to be
free from bodily restraint, to contract and engage in
the occupations of life, to acquire useful knowledge, to
marry and establish a home, to worship, and “to enjoy
those privileges long recognized as essential to the
orderly pursuit of happiness by free men.” Bd. of
Regents of State Colls, v. Roth, 408 U.S. 564, 572
(1972) (internal alterations omitted) (quoting Meyer
v. Nebraska, 262 U.S. 390, 399 (1923)). Property
interests “are created and their dimensions are defined
by existing rules or understandings that stem from
an independent source such as state law—rules or
understandings that secure certain benefits and that

I

App.l4a

support claims of entitlement to those benefits.” Id.,
408 U.S. at 577. “In order to have a property interest
in a benefit, a person must have more than a mere
‘unilateral expectation of it’ or ‘abstract need or desire
for it.’” Equity In Athletics, Inc. v. Dep’t of Educ., 639
F.3d 91, 109 (4th Cir. 2011) (quoting Roth, 408 U.S. at
577) (internal citations omitted).
Here, while Plaintiff appears dissatisfied with the
outcome of the Board of Examiners in Psychology’s
investigation into Shelton, he does not provide any
allegation that the investigation impeded his liberty
under any definition of that term. Nor has Plaintiff
provided any allegations that his property interests
were affected by the investigation. South Carolina law
provides no benefit or entitlements to those who file
complaints against licensed psychologists. See S.C.
Code Ann. § 40-55-130. And Plaintiff cites to no such
independent source that creates an entitlement to any
benefit from LLR or the Board Examiners in Psycho­
logy that would trigger a property interest in the
outcome of an investigation. Consequently, Plaintiffs
claims against these defendants should be summarily
dismissed as frivolous.
4. Right to Counsel
As to the South Carolina Bar, its Board of Gover­
nors, and individual board members, (“South Carolina
Bar Defendants”), Plaintiffs claim that they violated
his Sixth Amendment right to counsel is also patently
without merit. First, the court notes it is not clear in
what proceeding Plaintiff claims he has been denied
adequate legal counsel. Plaintiffs Complaint indicates
he had counsel in his state family court proceeding,
(Compl., ECF No. 1-1 at 11), and Plaintiff makes no

App.l5a
specific allegations that counsel was not competent in
that proceeding. To the extent Plaintiff indicates that
the South Carolina Bar Defendants prevented him
from obtaining counsel in this proceeding, the Sixth
Amendment does not govern civil cases. See Turner v.
Rogers, 564 U.S. 431, 442 (2011). And there is no federal
right to counsel in civil rights actions. See Hardwick
v. Ault, 517 F.2d 295 (5th Cir. 1975). Accordingly,
Plaintiff claim against the South Carolina Bar Defend­
ants should be summarily dismissed as frivolous
because it lacks an arguable basis in law or fact.
5. Rooker-Feldman Doctrine
To the extent Plaintiff asks the court to issue
injunctive relief that would interfere with the York
County Family Court’s final judgment or order, such
claims for relief are barred under the Rooker-Feldman
doctrine. “Under the RookedFeldman doctrine, lower
federal courts may not consider either issues actually
presented to and decided by a state court or constitu­
tional claims that are inextricably intertwined with
questions ruled upon by a state court.” Friedman’s, Inc.
v. Dunlap, 290 F.3d 191, 197 (4th Cir. 2002) (internal
citations and quotations omitted); see also Am. Reli­
able Ins. Co. v. Stillwell, 336 F.3d 311, 316 (4th Cir.
2003) (“Under the Rooker-Feldman doctrine, a party
losing in state court is barred from seeking what in
substance would be appellate review of the state judg­
ment in a United States district court. We regard the
doctrine as jurisdictional”). RookedFeldman is a narrow
doctrine confined to “cases brought by state-court
losers complaining of injuries caused by state-court
judgments rendered before the district court proceed­
ings commenced and inviting district court review and
rejection of those judgments.” Lance v. Dennis, 546 U.S.

App.l6a

459, 464 (2006) (quoting ExxonMobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 292 (2005)).
Here, Plaintiff asks the court to overturn the
York County Family Court’s final order and divorce
decree, award Plaintiff custody of his children, order
an evaluation of Plaintiffs children, and terminate
Plaintiffs ex-wife’s parental rights. If the court were
to consider those issues, it would effectively constitute
an appellate review of issues already decided by a
state court of competent jurisdiction. See e.g. Phifer v.
City of N.Y., 289 F.3d 49, 57 (2d Cir. 2002) (finding
that under the Rooker-Feldman doctrine, the court
could “not review the family court’s determinations
regarding custody, neglect and visitation, as those issues
were decided by the family court after providing Phifer
a full and fair opportunity to litigate those issues.”).
While the United States Supreme Court has cautioned
that federal courts should not apply the RookerFeldman expansively, the injunctive relief sought by
Plaintiff fits squarely into the doctrine’s parameters.
See Lance, 546 U.S. at 464-66 (“The doctrine applies
only in limited circumstances where a party in effect
seeks to take an appeal of an unfavorable state-court
decision to a lower federal court.”) (internal quotation
marks and citations omitted). Thus, Plaintiffs request
for injunctive relief from the York County Family Court’s
order and final judgment is barred by the RookerFeldman doctrine.

App.l7a
Because Plaintiff has no arguable basis in the law
to assert this claim for relief, it should be summarily
dismissed as frivolous.2
III. Conclusion
Accordingly, the court recommends that the
Complaint be summarily dismissed with prejudice
and without issuance and service of process. See
McLean v. United States, 566 F.3d 391, 400-01 (4th
Cir. 2009) (providing that dismissal of a pro se liti­
gant’s claim with prejudice is appropriate where the
claim is substantively meritless and cannot be cured
by amendment of the complaint.
/s/ Paige J. Gossett___________
United States Magistrate Judge
May 29, 2019
Columbia, South Carolina

2 In light of the court’s finding that it lacks subject matter juris­
diction over this matter, the court recommends that Plaintiffs
motion for a preliminary injunction be terminated. (ECF No. 7.)

Additional material
from this filing is
available in the
Clerk's Office.

